July 10, 2008

DAVID E. WILLIAMS, JR.
MANAGER, PROCESSING OPERATIONS

SUBJECT: Audit Report – Activation of the Philadelphia Processing and Distribution
         Center (Report Number NO-AR-08-004)

This report presents the results of our audit on the adequacy of the activation of the new
Philadelphia Processing and Distribution Center (P&DC) (Project Number
08XG017NO000). Our objective was to determine if the U.S. Postal Service was in
compliance with activation requirements at the Philadelphia P&DC related to mail
processing. The audit was conducted in cooperation with the Manager, Processing
Operations. Click here to go to Appendix A for additional information about this audit.




Conclusion

While the Postal Service was generally in compliance with activation requirements,
some key activation steps were not fully implemented. As a result, the Postal Service
experienced significant delayed mail, causing service degradation.
Activation of the Philadelphia                                                                        NO-AR-08-004
 Processing and Distribution Center



Compliance with Activation Requirements

The Postal Service met the majority of the activation requirements as outlined in the
Facility Activation – Master Plan, dated July 21, 2003. Of 11 mail processing activation
steps, the Postal Service completed six – activation coordinator/committee, staffing and
equipment requirements, employee orientation, acceptance of business mail at the
facility, and Decision Analysis Report (DAR) tracking. Further, almost 800 employees1
were successfully placed in new positions in the organization, and mail processing
operations from the former Philadelphia facility were successfully integrated into a new
facility to serve the community. Postal Service management also stated that they are
on target to achieve the return on investment required by the DAR.

However, Postal Service management did not complete five of the mail processing
activation steps – updating the operating plan, implementing the contingency plan,
creating a Supervisor’s Guide for Operations, and training employees in maintenance
and new skills. Click here to go to Appendix B for our detailed analysis of this issue.

Effects

As a result, the Philadelphia P&DC experienced delayed mail which negatively
impacted service. For example, during fiscal year (FY) 2005, total delayed volume was
about 29 million pieces — approximately 1 percent of the total volume. However, during
FY 2006, when the activation took place, more than 216 million pieces of mail (almost
11 percent) were delayed. Similarly, overnight service scores for First-Class Mail® had
reached a high of 96 percent on-time in the year before the activation. During the
activation, the overnight service score dropped below 88 percent. As of May 2008, both
delayed mail and service scores had improved. Click here to go to Appendix C for a
detailed analysis of delayed volume and service performance.

Causes

Management did not complete all activation requirements primarily because of:

    •    Inadequate training and oversight – Local management did not receive adequate
         training on requirements for activating the new P&DC. Prior to April 1996, a
         headquarters activation team provided site-specific training. However, the
         activation team was eliminated because of the Postal Service’s strategic plan to
         reduce its infrastructure and build fewer facilities. In addition, headquarters
         management did not provide sufficient oversight during the transition to ensure
         that all activation steps were completed.



1
  The baseline impact for the clerks of the Philadelphia Bid Installation was 789 employees. This included 133 clerks
from the post offices and 656 from the former Philadelphia P&DC who were determined to be excess.




                                                          2
Activation of the Philadelphia                                                                         NO-AR-08-004
 Processing and Distribution Center


    •    Management turnover – During the activation, the Philadelphia P&DC had
         numerous changes in plant management. For example, three xxxxx xxxxxxxx,
         seven xxxxxxxx xxxxxxx xxxxxxxx, and the xxxxxxxxxxx xxxxxxx were on
         extended leave. In addition, all managers and supervisors had to reapply for
         their positions. As a result, supervisors who had not received training were in
         charge of unfamiliar operations, which caused lapses in completing the activation
         requirements.

To improve future site activations, we recommend the Manager, Processing Operations:

1. Ensure that headquarters provides adequate training and oversight during
   transitions.

Management’s Comments

Management partially agreed with our recommendation. Headquarters intends to
continue to provide activation training. Headquarters will also provide a representative
to the activation team, who will be a headquarters-level contact for activation issues.
However, oversight for future plant activations will be the responsibility of districts and
areas. Management also agreed to review and modify the Facility Activation – Master
Plan by the end of FY 2008 to ensure that activation responsibilities are clearly
documented.2

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Management’s
actions should correct the issues identified in this report.

To improve future site activations, we recommend the Manager, Processing Operations:

2. Emphasize the importance of local management continuity during transitions.

Management’s Comments

Management agreed with this recommendation. Management will add emphasis to the
project plan as appropriate to highlight the importance of management continuity for
successful facility activation. This action will be completed by modifying the Facility
Activation – Master Plan by the end of FY 2008.




2
 After receiving management’s written response, we contacted headquarters officials for clarification on the future
plant activation responsibilities.




                                                          3
Activation of the Philadelphia                                                NO-AR-08-004
 Processing and Distribution Center


Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation. Their actions should
correct the issue identified in the report. Management’s comments, in their entirety, are
included in Appendix D.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jim Ballard, Director, Network
Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Anthony M. Pajunas
    Megan J. Brennan
    Frank Neri
    Daniel P. Muldoon
    Katherine S. Banks




                                            4
Activation of the Philadelphia                                               NO-AR-08-004
 Processing and Distribution Center


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service Office of Inspector General (OIG) has developed an operations
risk model that uses 11 performance indicators to rank all districts by overall
performance. The Philadelphia District was identified as an at-risk district based on
these indicators, which included overall low service scores for FY 2007. Additional
research showed that the problems originated when the new Philadelphia P&DC
opened. The Postal Service’s Manager, Processing Operations, agreed with our
assessment.




The former Philadelphia P&DC was originally located at 2970 Market Street adjacent to
the 30th Street train station. It consisted of four Postal Service-owned facilities: the
former Philadelphia P&DC (a five-story building), the truck terminal annex, the vehicle
maintenance facility, and the railway express annex. For over 30 years, deck-loaded
volumes and labor-intensive processes supporting rail transportation proved effective.

However, with the growth of automated processing, containerization, palletization, and
airline and highway network systems, the facility could no longer meet operational
needs. Therefore, the Board of Governors approved a new facility in August 2003. The
new $272 million building has 910,059 square feet of space on two levels. The
Philadelphia P&DC was activated in June 2006 and processes 6 million pieces of mail
daily for ZIP Code areas 190 and 191.




                                            5
Activation of the Philadelphia                                                NO-AR-08-004
 Processing and Distribution Center


With the new facility, the Postal Service eliminated constraints that resulted from
operating out of two buildings on seven levels in a downtown metropolitan location.
Management stated that the new facility would improve operational efficiencies, provide
better service to customers, and reduce labor-intensive activities.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the Postal Service was in compliance with activation
requirements at the Philadelphia P&DC related to mail processing. To achieve this
objective, we analyzed mail volume, service scores, trends in delayed mail, training
records, and automation schedules, and we interviewed Postal Service officials and
employees. We used computer-processed data from the following systems:

    •   Web Enterprise Information System
    •   Enterprise Data Warehouse

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analyses and results with Postal Service managers and
multiple data sources.

We conducted this performance audit from January through July 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on April 9, 2008, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has not completed any prior audits on the activation of a new facility.




                                            6
Activation of the Philadelphia                                                                        NO-AR-08-004
 Processing and Distribution Center


                            APPENDIX B: ACTIVATION COMPLIANCE

Generally, the Postal Service met the key activation requirements outlined in the Facility
Activation – Master Plan, dated July 21, 2003. The Postal Service completed six of 11
mail processing activation steps – activation coordinator/committee, staffing and
equipment requirements, employee orientation, acceptance of business mail at the
facility, and DAR tracking. Further, almost 800 employees3 were successfully placed in
new positions in the organization, and mail processing operations from the former
Philadelphia facility were successfully integrated into a new facility to serve the
community. Postal Service management also stated that they are on target to achieve
the return on investment required by the DAR.

However, Postal Service management did not complete five of the mail processing
activation steps – updating the operating plan, implementing the contingency plan,
creating a Supervisor’s Guide for Operations, and training employees in maintenance
and new skills.

    •    Operating plan – The unit operating plan, dated May 2005, did not include a mail
         arrival profile. Without this profile, operations in the new facility could not be
         properly staffed.

    •    Contingency planning – A contingency plan was not successfully implemented to
         sort mail at the stations and branches in the event that the Philadelphia P&DC
         could not process mail in a timely manner. In fact, during the transition, the
         Philadelphia P&DC could not process all of its mail promptly enough to meet
         service standards. Consequently, some mail was diverted to the stations and
         branches for processing, according to the contingency plan. However, the
         stations and branches did not have sufficient staff to process this mail. Because
         of this shortage of staff at the stations and branches, the Philadelphia P&DC had
         to use overtime hours to process the mail.

    •    Supervisor’s Guide – The unit did not create a Supervisor’s Guide for Operations
         to provide supervisors with goals, objectives, operating plans, standard operating
         procedures, mail flow charts, emergency and contingency plans, floor layouts,
         color coding processes, service standards, and information on equipment usage
         and operations.

    •    Training in maintenance and new skills – Although the former Philadelphia P&DC
         had some new technology, the new Philadelphia P&DC contained considerable
         automation and mechanization equipment that was new to supervisors, craft
         employees, and maintenance staff, all of whom needed training. However, most
         employees were not trained until after the new facility was activated. Only 51 of

3
  The baseline impact for the clerks of the Philadelphia Bid Installation was 789 employees. This included 133 clerks
from the post offices and 656 from the former Philadelphia P&DC who were determined to be excess.




                                                          7
Activation of the Philadelphia                                                                NO-AR-08-004
 Processing and Distribution Center


        the approximately 2,300 employees received automation4 training before the
        activation. An additional 338 employees were trained after they transferred to
        the new Philadelphia P&DC. The remaining employees received no documented
        automation training.

The table below summarizes the activation steps and implementation status.

          Implementation Status of Mail Processing Activation Steps for the
                         Philadelphia P&DC Site Activation

                     Mail Processing Activation Steps*                  Implemented
                 Activation coordinator/committee                             Yes
                 Forecast required equipment                                  Yes
                 Staffing requirements                                        Yes
                 Employee orientation                                         Yes
                 Business mail entry unit**                                   Yes
                 DAR tracking^                                                Yes
                 Contingency planning                                         No
                 Supervisor's Guide for Operations                            No
                 Maintenance training (in advance)                            No
                 Update operating plan                                        No
                 Train staff in new skills                                    No

Notes
*Steps listed in the Facility Activation – Master Plan, dated July 21, 2003.
**The business mail entry unit is an acceptance unit for bulk mailers.
^The sponsor, or requesting organization, prepares a DAR recommending an investment and providing
the approving authority with adequate information to make a prudent business decision. The DAR
explains the background and purpose of the program and fully documents costs and benefits estimates.
Costs must be supported with documentation showing the calculations and the basis for all assumptions.
Revenue projections or volume changes should be supported by a market analysis that outlines the
justification with supporting volume changes, price increases, and impact on the total market.




4
 Automation training includes training on Delivery Bar Code Sorter, Advanced Facer Canceller System-Optical
Character Reader, Automated Flats Sorting Machine, Automated Package Processing System, and Automated Tray
Handling System for the Automated Flats Sorting Machine 100.




                                                     8
Activation of the Philadelphia                                                      NO-AR-08-004
 Processing and Distribution Center


                                APPENDIX C: DELAYED MAIL VOLUME
                                   AND SERVICE PERFORMANCE

Because the Philadelphia P&DC did not fully comply with the activation requirements,
mail was delayed and service was negatively impacted. For example:

      •    Prior to the activation in May 2006, overnight service scores at the former
           Philadelphia P&DC reached a quarterly high of 96.05 percent5 on-time,
           compared to the Postal Service’s goal of 95 percent on-time.

      •    During the activation, the overnight service score at the new Philadelphia P&DC
           dropped to 87.04 percent. Delayed First-Class Mail reached 10.76 percent, and
           9 percent of all mail was delayed.

      •    As of March 2008, overall delays had decreased to less than 2 percent, with no
           delays in First-Class Mail volume. Also, the Philadelphia P&DC overnight service
           score had improved to pre-activation levels of almost 96 percent on-time and was
           consistent with national averages. The tables below show trends in delayed mail
           and service scores for quarter 1, FY 2005 through quarter 2, FY 2008.

                       PHILADELPHIA P&DC DELAYED MAIL TRENDS –
                     QUARTER 1, FY 2005 THROUGH QUARTER 2, FY 2008

                                                             Delayed        First       Percentage
                                                              Mail for    Handling       of All Mail
  Quarter                                                   All Classes    Pieces         Delayed
QTR 1, FY 05              xxxxxxx   xxxxxxxxx        xxxx     9,823,750   602,210,477           1.63
QTR 2, FY 05            xxxxxxxxx   xxxxxxxxx       xxxxx    24,207,773   583,723,004           4.15
QTR 3, FY 05                xxxxx   Xxxxxxxxx        xxxx     2,821,971   575,670,772           0.49
QTR 4, FY 05                    x   xxxxxxxxx           x     1,208,255   559,184,459           0.22
QTR 1, FY 06               xxxxxx   xxxxxxxxx        xxxx       651,960   588,743,718           0.11
QTR 2, FY 06              xxxxxxx   xxxxxxxxx        xxxx    17,510,221   543,843,656           3.22
QTR 3, FY 06              xxxxxxx   xxxxxxxxx       xxxxx    43,778,593   484,638,460           9.03
QTR 4, FY 06                xxxxx   xxxxxxxxx        xxxx    11,021,188   433,217,757           2.54
QTR 1, FY 07              xxxxxxx   xxxxxxxxx        xxxx   144,179,399   537,598,495          26.82
QTR 2, FY 07            xxxxxxxxx   xxxxxxxxx       xxxxx    21,916,602   533,353,590           4.11
QTR 3, FY 07                    x   xxxxxxxxx           x     3,309,854   502,190,473           2.65
QTR 4, FY 07                    x   xxxxxxxxx           x     4,325,069   509,081,902           0.85
QTR 1, FY 08                    x   xxxxxxxxx           x    10,888,873   547,187,741           1.99
QTR 2, FY 08                    x   xxxxxxxxx           x     9,859,035   516,757,880           1.91

The shaded area shows delayed mail during the activation.




5
    Quarter (QTR) 1, FY 2005.




                                                9
Activation of the Philadelphia                                                     NO-AR-08-004
 Processing and Distribution Center


                   PHILADELPHIA P&DC SERVICE SCORE TRENDS –
                  QUARTER 1, FY 2005 THROUGH QUARTER 2, FY 2008

                                       Overnight
                                          Mail        2-Day Mail     3-Day Mail
                     Quarter          (percentage)   (percentage)   (percentage)
                  QTR 1, FY 2005             96.05          90.67          86.46
                  QTR 2, FY 2005             94.53          88.66          84.43
                  QTR 3, FY 2005             95.19          92.82          91.53
                  QTR 4, FY 2005             96.02          91.31          90.97
                  QTR 1, FY 2006             95.24          89.64          82.89
                  QTR 2, FY 2006             94.18          89.28          84.66
                  QTR 3, FY 2006             87.04          78.27          78.17
                  QTR 4, FY 2006             92.21          87.33          84.24
                  QTR 1, FY 2007             92.83          87.52          84.59
                  QTR 2, FY 2007             93.67          86.36          81.99
                  QTR 3, FY 2007             94.34          91.36          88.63
                  QTR 4, FY 2007             95.27          91.62          89.51
                  QTR 1, FY 2008             95.61          91.20          85.81
                  QTR 2, FY 2008             95.88          92.59          88.66

Source: Enterprise Data Warehouse

The shaded area shows service scores during the activation. For FY 2008, the planned
service goals are 96 percent for overnight; 92.75 percent for 2-day mail; and 90.75 for
3-day.




                                                10
Activation of the Philadelphia                             NO-AR-08-004
 Processing and Distribution Center


                       APPENDIX D. MANAGEMENT’S COMMENTS




                                      11
Activation of the Philadelphia             NO-AR-08-004
 Processing and Distribution Center




                                      12
